       ¥   ~l'-RVICES
     +1'                "VJ'




(          ~ DEPARTMENT OF HEALTH & HUMAN SERVICES                                                           Office of Inspector General
    <Y-Jv~~\-
      ~itV<f3G  (}.


                                                                                                             Region IX
                                                                                                             Office of Audit Services
                                                                                                                    h
                                                                                                             90 - i Street, Suite 3-650
                                        29                                                                   San Francisco, CA 94103



                               Report Number: A-09-09-01007

                               Ms. Michelle Britton

                               Division Administrator

                               Family and Community Services

                               Idaho Department of Health and Welfare

                               450 West State Street, 5th Floor

                               Boise, Idaho 83720-0036


                               Dear Ms. Britton:

                               Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
                               General (OIG), final report entitled "Review ofIdaho's Title IV-E Adoption Assistance Costs for
                               Federal Fiscal Years 2006-2008." We will forward a copy of this report to the HHS action
                               official noted on the following page for review and any action deemed necessary.

                               The HHS action official will make final determination as to actions taken on all matters reported.
                               We request that you respond to this official within 30 days from the date of this letter. Your
                               response should present any comments or additional information that you believe may have a
                               bearing on the final determination.

                               Pursuant to the Freedom ofInformation Act, 5 U.S.C. § 552, OIG reports generally are made
                               available to the public to the extent that information in the report is not subject to exemptions in
                               the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

                               If you have any questions or comments about this report, please do not hesitate to call me at
                               (415) 437-8360, or contact Doug Preussler, Audit Manager, at (415) 437-8360 or through email
                               at Doug.Preussler@oig.hhs.gov. Please refer to report number A-09-09-01007 in all
                               correspondence.

                                                                              Sincerely,



                                                                              Lori A. Ahlstrand
                                                                              Regional Inspector General
                                                                               for Audit Services


                               Enclosure
Page 2 - Ms. Michelle Britton


Direct Reply to HHS Action Official:

Mr. Steve Henigson
Regional Administrator
U.S. Department of Health and Human Services
Administration for Children and Families, Region X
2201 Sixth Avenue
Seattle, Washington 98121
Department of Health and Human Services

             OFFICE OF

        INSPECTOR GENERAL





 REVIEW OF IDAHO'S TITLE IV.. E
 ADOPTION AsSISTANCE COSTS
  FOR FEDERAL FISCAL YEARS
             2006-2008




                    Daniel R. Levinson

                     Inspector General


                        July 2009

                      A-09-09-01007

                    Office ofInspector General
                                     http:// oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying out
their respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement
and promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office ofInvestigations
The Office of Investigations (01) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, 01 utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of 0 I often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office ofCounsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG's internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY


BACKGROUND

Pursuant to Title IV-E of the Social Security Act, the Department of Health and Human Services,
Administration for Children and Families (ACF), administers the foster care and adoption
assistance programs. The Federal Government shares in the States' costs of adoption assistance
payments for children who meet supplemental security income (SSI) requirements or other
specific requirements. To meet SSI requirements, a child must be disabled, his or her household
income must be below a specified ceiling, and he or she must be under a specific age. Children
who do not meet SSI requirements may still be eligible for Federal reimbursement if they meet
other specific requirements. One of these requirements is that the income of the child's family at
the time the child was removed from the home not exceed the ceiling for the former Aid to
Families with Dependent Children (AFDC) program (as in effect on July 16, 1996). Children
who meet AFDC eligibility requirements qualify for Title IV-E assistance if their removal from
the home was based on either:

   •	 a voluntary placement agreement, provided that the child is receiving Title IV-E foster
      care payments, or

   •	 a judicial determination obtained within 6 months of the child's removal from the home
      demonstrating that continuation in the home would be contrary to the child's welfare.

The Federal Government pays its share of a State's adoption assistance payments based on the
Federal medical assistance percentage (FMAP), which varies depending on the State's relative
per capita income. Pursuant to the American Recovery and Reinvestment Act of2009, P.L.
No. 111-5, States' FMAPs are temporarily increased for Federal fiscal year (FY) 2009, FY 2010,
and the first quarter of FY 2011.

In Idaho, the Department of Health and Welfare, Division of Family and Community Services
(the State agency), is responsible for administering the Title IV-E foster care and adoption
assistance programs. During FYs 2006-2008, the State agency claimed approximately
$8.9 million (Federal share) in Title IV-E adoption assistance payments on its Federal quarterly
expenditure reports. Of the 959 adoption assistance payments in FY 2006, we reviewed 250
payments with the highest dollar amounts (high-dollar payments).

OBJECTIVE

Our objective was to determine whether the State agency complied with Federal eligibility
requirements in claiming high-dollar adoption assistance payments for Federal reimbursement.

SUMMARY OF FINDINGS

The State agency complied with Federal eligibility requirements in claiming high-dollar adoption
assistance payments totaling $1,116,047 for 246 of the 250 children whose cases we reviewed
for FY 2006. However, the remaining four children with payments totaling $18,139 met neither
SSI requirements nor all of the other requirements for Federal reimbursement. Specifically, the
State agency claimed payments for one child that the State agency identified as ineligible and for
three children for whom the State agency did not provide evidence of a voluntary placement
agreement or a judicial determination that continuation in the home would be contrary to their
welfare.

The State agency continued to claim adoption assistance payments totaling $105,907 in
FYs 2007 and 2008 for these children. As a result, the State agency overclaimed $124,046 in
FYs 2006-2008. Of this amount, $87,918 was for a child that the State agency identified as
ineligible, and $36,128 was for three children who did not meet requirements for voluntary
placement agreements or judicial determinations. In addition, based on information that the
State agency provided during our review, the Federal Government should avoid paying $17,764
for FYs 2009 and 2010 for children who do not meet Federal eligibility requirements. This
amount consists of $16,250 that we calculated using the original FMAPs for FYs 2009 and 2010
and $1,514 in additional payments that we calculated using the temporarily increased FMAPs for
those FYs.

RECOMMENDATIONS

We recommend that the State agency:

   •	 make a financial adjustment of$87,918 on its next Federal quarterly expenditure report
      for the child identified as ineligible;

   •	 work with ACF to resolve $36,128 in overpayments for children who did not meet
      requirements for voluntary placement agreements or judicial determinations; and

   •	 claim adoption assistance payments only for children that meet Federal eligibility
      requirements, resulting in a savings to the Federal Government of$17,764 for FYs 2009
      and 2010.

STATE AGENCY COMMENTS

In its written comments on our draft report, the State agency agreed with our findings and
described actions that it had taken or planned to take to address our recommendations. The State
agency's comments are included in their entirety as the Appendix.




                                                 11
                            TABLE OF CONTENTS



INTRODUCTION                                                                1


    BACKGROUND                                                              1

        Title IV-E Foster Care and Adoption Assistance Programs             1

        Title IV-E Federal Reimbursement of Adoption Assistance Payments

          in Idaho                                                          1


    OBJECTIVE, SCOPE, AND METHODOLOGY                                       2

         Objective                                                          2

         Scope                                                              2

         Methodology                                                        2


FINDINGS AND RECOMMENDATIONS                                                3


    ADOPTION ASSISTANCE PAYMENTS CLAIMED FOR INELIGIBLE

     CHILDREN                                                               3


    RECOMMENDATIONS                                                         4


    STATE AGENCY COMMENTS                                                   4


APPENDIX


     STATE AGENCY COMMENTS





                                        ll1
                                          INTRODUCTION


BACKGROUND

Title IV-E Foster Care and Adoption Assistance Programs

Pursuant to Title IV-E of the Social Security Act (the Act), the Department of Health and Human
Services, Administration for Children and Families (ACF), administers the foster care and
adoption assistance programs. The foster care program helps States provide proper care for
children who need placement in a foster home or an institution. The adoption assistance program
helps States encourage the adoption of children with special needs. As it does in the foster care
program, the Federal Government shares in the States' costs of adoption assistance payments for
eligible children.

Sections 473(a) and (c) of the Act establish adoption assistance eligibility requirements, and
ACF's "Child Welfare Policy Manual" provides guidance on these requirements. Specifically,
special needs children must meet supplemental security income (SSI) requirements or other
specific requirements to qualify for Federal reimbursement under the adoption assistance
program. To meet SSI requirements, a child must be disabled, his or her household income must
be below a specified ceiling, and he or she must be under a specific age. Children who do not
meet SSI requirements may still be eligible for Federal reimbursement if they meet other specific
requirements. One ofthese requirements is that the income of the child's family at the time the
child was removed from the home not exceed the ceiling for the former Aid to Families with
Dependent Children (AFDC) program (as in effect on July 16, 1996). Children who meet AFDC
income eligibility requirements qualify for Title IV-E assistance if their removal from the home
was based on either:

   •	 a voluntary placement agreement, provided that the child is receiving Title IV-E foster
      care payments, or

   •	 a judicial determination obtained within 6 months of the child's removal from the home
      demonstrating that continuation in the home would be contrary to the child's welfare.

The Federal Government pays its share of a State's adoption assistance payments based on the
Federal medical assistance percentage (FMAP), which varies depending on the State's relative
per capita income. Pursuant to the American Recovery and Reinvestment Act (ARRA) of2009,
P.L. No. 111-5, States' FMAPs are temporarily increased for Federal fiscal year (FY) 2009,
FY 2010, and the first quarter ofFY 2011.

Title IV-E Federal Reimbursement of Adoption Assistance Payments in Idaho

In Idaho, the Department of Health and Welfare, Division of Family and Community Services
(the State agency), is responsible for administering the Title IV-E foster care and adoption
assistance programs. The State agency provides subsidy payments (ranging from $40 to $1,441
per month) to all families that adopt foster care children. To claim costs for Title IV-E
reimbursement, the State agency submits a quarterly claim to the Federal Government.

                                                1

During FYs 2006-2008, the FMAPs for Idaho's adoption assistance payments ranged from
69.87 percent to 70.36 percent. The original FMAPs for Idaho's adoption assistance payments
for FYs 2009 and 2010 are 69.77 and 69.40 percent, respectively. The increased FMAPs due to
the ARRA are 76.07 percent for both of these FYs.

The State agency claimed approximately $8.9 million (Federal share) in Title IV-E adoption
assistance payments on its Federal quarterly expenditure reports during FYs 2006-2008. Of the
959 adoption assistance payments in FY 2006, we reviewed 250 payments with the highest
dollar amounts (high-dollar payments).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency complied with Federal eligibility
requirements in claiming high-dollar adoption assistance payments for Federal reimbursement.

Scope

We reviewed the eligibility of children for whom the State agency claimed Title IV-E adoption
assistance costs in FY 2006 (October 2005 through September 2006). Of the 959 claims that the
State agency submitted for Federal reimbursement in FY 2006, we limited our review to
250 claims with the highest dollar amounts. In total, we reviewed $1,134,186 (42 percent) of the
$2,681,284 submitted for reimbursement. For ineligible children identified in FY 2006, we
determined whether the State agency continued to claim payments in FYs 2007 and 2008.

We limited our consideration of the State agency's internal controls to obtaining an
understanding of the process used to determine a child's eligibility and claim Title IV-E adoption
assistance payments for the 3 years that ended in September 2008.

We performed our fieldwork at the State agency in Boise, Idaho, from December 2008 through
March 2009.

Methodology

To accomplish our objective, we:

   •	 reviewed applicable Federal laws and regulations and ACF program and policy

      announcements,


   •	 reconciled total adoption assistance payments that the State agency claimed in FY 2006
      to individual supporting claims,

   •	 reviewed eligibility case files for 250 claims with the highest dollar amounts that the
      State agency submitted for Federal reimbursement in FY 2006,


                                                2
     •	 determined whether the State agency continued to claim payments during FYs 2007 and
        2008 for ineligible children identified in our FY 2006 review by reconciling the amounts
        that the State agency claimed for Federal reimbursement to individual supporting claims,

    •	 verified the State agency's calculation of the amounts it would have claimed in FYs 2009
       and 2010 for the ineligible children identified in our FY 2006 review, and

    •	 determined the overall savings to the Federal Government for FYs 2009 and 2010 by
       applying the original and temporarily increased FMAPs for those FYs to the claim
       amounts that the State agency calculated.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                               FINDINGS AND RECOMMENDATIONS

The State agency complied with Federal eligibility requirements in claiming high-dollar adoption
assistance payments totaling $1,116,047 for 246 of the 250 children whose cases we reviewed
for FY 2006. However, the remaining four children with payments totaling $18,139 met neither
SSI requirements nor all of the other requirements for Federal reimbursement.

ADOPTION ASSISTANCE PAYMENTS CLAIMED FOR INELIGIBLE CHILDREN

Contrary to sections 473(a) and (c) of the Act, four claims (1.6 percent ofthe 250 claims we
reviewed) with payments totaling $18,139 were for ineligible children. Specifically, the State
agency claimed payments for one child that the State agency identified as ineligible and for three
children for whom the State agency did not provide evidence of a voluntary placement
agreement or a judicial determination that continuation in the home would be contrary to their
welfare. l

The State agency continued to claim adoption assistance payments totaling $105,907 in
FYs 2007 and 2008 for these children. Of this amount, $76,324 was claimed in FY 2007 and
$29,583 was claimed in FY 2008.

As a result, the State agency overclaimed $124,046 in FYs 2006-2008. Of this amount, $87,918
was for a child that the State agency identified as ineligible, and $36,128 was for three children
who did not meet requirements for voluntary placement agreements or judicial determinations.


lIn 2001 guidance (ACYF-CB-PA-OI-0l (Jan. 23, 2001)), ACF explained that the judicial determination must be
made in the first court ruling that authorizes the child's removal from the home. Prior to the publication of the Title
IV-E foster care regulation at 45 CFR § 1356.2I(c) in January 2000, States were allowed up to 6 months after a
child's removal to obtain the requisite judicial determination. In our audit, the State would have had 6 months to
obtain the judicial determination because the ineligible children in our sample were removed from the home prior to
the implementation of this policy change.

                                                           3
In addition, based on information that the State agency provided during our review, the Federal
Government should avoid paying $17,764 for FYs 2009 and 2010 for children who do not meet
eligibility requirements. This amount consists of $16,250 that we calculated using the original
FMAPs for FYs 2009 and 2010 and $1,514 in additional payments that we calculated using the
temporarily increased FMAPs for those FYs.

RECOMMENDATIONS

We recommend that the State agency:

   •	 make a financial adjustment of$87,918 on its next Federal quarterly expenditure report
      for the child identified as ineligible;

   •	 work with ACF to resolve $36,128 in overpayments for children who did not meet
      requirements for voluntary placement agreements or judicial determinations; and

   •	 claim adoption assistance payments only for children that meet Federal eligibility
      requirements, resulting in a savings to the Federal Government of $17,764 for FYs 2009
      and 2010.

STATE AGENCY COMMENTS

In its written comments on our draft report, the State agency agreed with our findings and
described actions that it had taken or planned to take to address our recommendations. The State
agency's comments are included in their entirety as the Appendix.




                                               4

APPENDIX

                                                                                                                APPENDIX





                            I D A H 0       DEPARTMENT                                OF

                          HEALTH & WELFARE
C.L. "BUTCH" OTTER· GOVERNOR	                                                   MICHELLE BRITTON - Administrator
RICHARD M. ARMSTRONG - Director                                    DNISION OF FAMlLY AND COMMUNITY SERVICES
                                                                                        450 West State Street, 5ili Floor
                                                                                 P.O. Box 83720, Boise, ill 83720-0036
                                                                                              PHONE 208-334-5700
                                                                                    FAX 208-332-73311208-332-7330


        June 27, 2009


        Lori A. Ahlstrand, Regional Inspector General

        Region IX - Office of Audit Services

        90 7fu Street, Suite 3-650
        San Francisco, CA 94103

        RE: Report Number: A-09-09-01007

        Dear Ms. Ahlstrand:

        Idaho is in agreement with your findings as set forth in the draft report entitled "Review of
        Idaho's Title IV-E Adoption Assistance Costs for Federal Fiscal Years 2006-2008."

        We have made plans to address your recommendations as follows:

            •	 We will make the necessary adjustment on our next quarterly expenditure report
               ($87,918);

            •	 We are in contact with Region X ACF staff and will work toward resolving these
               overpayments ($36,128); and

            •	 We have implemented business practices, protocols and quality assurance
               mechanisms to ensure all adoption assistance claims going forward meet the federal
               eligibility requirements.

        If you have questions or require additional specifics as to how we are implementing the
        recommendations please do not hesitate to call Steve Seale (208) 334-6643.




       ~~~~
        Michelle Britton, Administrator
        Division of Family and Community Services

        MB/db
